                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              AUDIT OF A COMPLAINT INVOLVING THE
                                              COMMUNITY PRESERVATION AND
                                              DEVELOPMENT CORPORATION’S H-1B
                                              TECHNICAL SKILLS TRAINING GRANT




                                                                    Date Issued: March 30, 2007
                                                                    Report Number: 03-07-001-03-321
U.S. Department of Labor                                  March 2007
Office of Inspector General
Office of Audit                                           Audit of a Complaint Involving the
BRIEFLY…                                                  Community Preservation and Development
                                                          Corporation’s H-1B Technical Skills Training
Highlights of Report Number: 03-07-001-03-321, to         Grant
the Assistant Secretary for Employment and Training       WHAT OIG FOUND
                                                          We found that CPDC did not accurately report,
WHY READ THE REPORT                                       allocate, and support salary costs, and CPDC
The Office of Inspector General (OIG) performed an        charged indirect costs to the grant without an
audit resulting from a complaint of an H-1B               approved indirect cost plan. These conditions
Technical Skills Training Grant awarded by DOL’s          occurred because CPDC did not have adequate
Employment and Training Administration (ETA) to           internal controls in place. As a result, CPDC
the Community Preservation and Development                charged $870,821 in salary and indirect costs to the
Corporation (CPDC) located in Washington, DC.             DOL grant that did not meet the Office of
The complainant alleged that CPDC:                        Management and Budget (OMB) Circular A-122 cost
                                                          principle requirements for Federal grants by
1. allocated salary expenses to the grant for staff       nonprofit organizations.
   not directly involved in providing H-1B services;
2. used grant funds, intended for DC residents            CPDC’s reported participant outcome data were not
   only, to provide services to out-of-state              valid and reliable. CPDC overstated the reported
   residents;                                             number of participants trained and placed in
3. reported outcome data that were dubious;               employment, and who received promotions and/or
4. did not meet its matching funds requirement;           wage gains. This occurred because CPDC did not
5. used grant funds to develop CPDC’s website;            have internal controls in place to ensure that it had a
   and                                                    management information system that accurately
6. spent proceeds from certain properties to              tracked participant activity, maintained evidence to
   purchase surplus equipment to be used at other         support participant outcome data, and accurately
   properties.                                            reported it to ETA. As a result, CPDC overstated its
                                                          participant outcome data and did not meet the
WHY OIG DID THE AUDIT                                     outcome goals of the grant.
The purpose of our audit was to answer the                CPDC met the required matching fund contribution
following questions:                                      for the grant.
1. Did CPDC ensure that costs charged to the
   grant were reasonable, allowable, and
                                                          WHAT OIG RECOMMENDED
   allocable?                                             We recommend that the Assistant Secretary for
2. Were the reported participant outcome data             Employment and Training:
   valid and reliable?                                    1. Recover the $870,821 in questioned salary and
3. Did CPDC meet the $2.6 million matching funds             indirect costs charged to the grant.
   requirement according to the grant agreement?          2. Require CPDC to re-submit the final grant close-
                                                              out package with revised outcomes.
We did not perform specific audit work on                 3. Prior to awarding future grants to CPDC,
allegations 2, 5, and 6. For allegation 2, the grant          perform a review to ensure CPDC has: a
did not limit services to Washington, DC residents.           financial accounting system that meets Federal
For allegations 5 and 6, the complainant could not            requirements; internal accounting controls; a
provide specific information, and nothing came to             Federally approved indirect cost plan; and a
our attention to indicate that the allegations could be       management information system to ensure that
substantiated.                                                reported performance data is accurate,
                                                              supportable, and reliable.

READ THE FULL REPORT                                      CPDC agreed to re-submit a final grant close-out
                                                          package with revised outcomes. With regard to
To view the report, including the scope,                  questioned costs related to salary and indirect costs
methodology, and CPDC’s response, go to:                  charged to the grant, CPDC disagreed with the
http://www.oig.dol.gov/public/reports/oa/2007/03-07-      report’s conclusions and related recommendation.
001-03-321
                                Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant



Table of Contents
                                                                                                                        PAGE
EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
    CPDC Did Not Ensure That Costs Charged to the Grant Were Allowable, and
    Allocable................................................................................................................... 8

    CPDC’s Reported Participant Outcome Data Were Not Valid or Reliable......... 15

    CPDC Met the Required Matching Fund Contribution For the Grant ............... 17


EXHIBITS...................................................................................................................... 23
   A. Schedule of Questioned Costs .......................................................................... 25

   B. CPDC's Final Detailed Statement of Costs ....................................................... 27

   C. CPDC's Performance According to the Final Quarterly Report ...................... 29


APPENDICES ............................................................................................................... 31
   A. Background ......................................................................................................... 33

   B. Objectives, Scope, Methodology, and Criteria ................................................. 35

   C. Acronyms and Abbreviations ............................................................................ 41

   D. CPDC Response to Draft Report ....................................................................... 43




U.S. Department of Labor—Office of Inspector General                                                                            1
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant



Executive Summary
As a result of a complaint, the U.S. Department of Labor (DOL), Office of Inspector
General (OIG), audited an H-1B Technical Skills Training Grant awarded by DOL’s
Employment and Training Administration (ETA) to the Community Preservation and
Development Corporation (CPDC) located in Washington, DC.

Authorized by the Immigration and Nationality Act of 1992 H-1B program’s purpose was
to respond to demands from industries that were experiencing skill shortages in areas
such as information technology. The American Competitiveness and Workforce
Improvement Act of 1998 authorized H-1B Technical Skills Training Grants. The goals
of the grants was to raise the technical skill levels of American workers in order to fill
specialty occupations presently filled by temporary workers admitted to the United
States under the provisions of the H-1B nonimmigrant visa. The grants were financed
by a user fee paid by employers to bring foreign workers into the U.S. under an H-1B
nonimmigrant visa.

In May 2002, ETA awarded CPDC a $2,594,488 H-1B Technical Skills Training Grant.
The grant covered the period May 1, 2002 to December 31, 2004. CPDC is a non-profit
Corporation that builds affordable housing in low-income communities. The agency
also operates community development programs to improve the lives of low-income
residents.

In June 2004, the OIG received a letter alleging the misuse of H-1B Technical Skills
Training Grant funds by CPDC. The complainant alleged that CPDC:

   1. allocated salary expenses to the grant for staff not directly involved in providing
      H-1B services;

   2. used grant funds, intended for Washington, D.C. residents, to provide services to
      out-of-state residents;

   3. reported outcome data that were dubious;

   4. did not meet its matching funds requirement;

   5. used H-1B grant funds to develop CPDC’s website; and

   6. spent proceeds from certain properties to purchase surplus equipment to be
      used at other properties.

We did not perform specific audit work on allegation numbers 2, 5, and 6. For allegation
number 2, we found the grant did not limit services to Washington, DC residents. The
grant agreement specifically stated that areas affected by the project were Washington,

U.S. Department of Labor—Office of Inspector General                                         3
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

DC, Montgomery County Maryland, and Northern Virginia. For allegation numbers 5
and 6, the complainant could not provide specific information, and nothing came to our
attention during our audit to indicate that the allegations could be substantiated.

The audit objectives were to answer the following questions:

    1. Did CPDC ensure that costs charged to the grant were reasonable, allowable,
       and allocable?

    2. Were the reported participant outcome data valid and reliable?

    3. Did CPDC meet the $2.6 million matching funds requirement according to the
       grant agreement?

Results

CPDC did not ensure that costs charged to the grant were allowable and allocable. We
found that CPDC did not accurately report, allocate, and support salary costs and
CPDC charged indirect costs to the grant without an approved indirect cost plan.
Although our testing of contractor expenses identified exceptions, we found unclaimed
costs that offset the amount of exceptions. Therefore, CPDC incurred a sufficient
amount of costs to support the amount contractor expenses charged as a Federal share
to the grant. Nothing came to our attention to question the reasonableness of costs we
tested. These conditions occurred because CPDC did not have adequate internal
controls in place. As a result, CPDC charged $870,821 in salary and indirect costs to
the DOL grant that did not meet the cost principle requirements established by Office of
Management and Budget (OMB) Circular A-122 for costs charged to Federal grants by
nonprofit organizations.

CPDC’s reported participant outcome data were not valid and reliable. CPDC
overstated the reported number of participants trained and placed in employment, and
who received promotions and/or wage gains. This occurred because CPDC did not
have internal controls in place to ensure that it had a management information system
that accurately tracked participant activity, maintained evidence to support participant
outcome data, and accurately reported it to ETA. As a result, CPDC overstated its
participant outcome data and did not meet the outcome goals of the grant.

CPDC met the required matching fund contribution for the grant.

CPDC Response

On behalf of CPDC, CPDC’s legal counsel responded to the draft report. Concerning
the report’s finding that CPDC did not accurately report salary costs, CPDC responded
that the questioned costs represented contractors who provided services to CPDC
instead of employees. For the salary costs questioned because they were allocated to
the grant based on pre-determined rates, CPDC responded that these costs were for

4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

activities directly related to the grant. For the salary costs questioned for unsupported
timesheets, CPDC stated that in order to respond, they need to be provided the audit
working papers that supported the finding. They responded that time sheets not signed
by at least the employee or supervisor should be acceptable because OMB Circular A-
122 does not require that both the employee and supervisor sign the timesheet as long
as one of them signs it. CPDC also requested the audit working papers that supported
other questioned salary costs.

Concerning the questioned indirect costs, CPDC responded that failure to have an
indirect cost rate is not sufficient to disallow the indirect costs charged to the grant.
They stated that the grant agreement provided that an indirect cost rate was not
applicable. Additionally, CPDC stated that DOL’s One-Stop Comprehensive Financial
Management Technical Assistance Guide provided numerous methods for allocating
costs and stated that indirect costs are usually recaptured through an indirect cost rate.
CPDC responded that if an indirect cost rate was mandatory, then the Technical
Assistance Guide would not have contained this qualified language.

CPDC responded that they will re-submit a final grant close-out package with revised
outcomes.

Concerning the recommendation that the Assistant Secretary for Employment and
Training perform a review of CPDC’s internal controls, CPDC stated it would be an
unnecessary diversion of CPDC’s resources because they had taken corrective action
on internal controls.

See Appendix D for the complete response from CPDC.

OIG Conclusion

CPDC’s response did not change our findings and recommendations. For the
overstated salary and wages costs, it will be the decision of ETA’s Grant Officer to allow
the grants funds budgeted for salary and wages to be used to pay for contractor costs.
If ETA’s Grant Officer allows CPDC to use the grant funds budgeted for salary and
wages to pay for contractor costs, then ETA’s Grant Officer will have to consider how
this would affect our audit results on contractor costs and matching fund costs. CPDC’s
response did not provide any information to change our conclusion that employee costs
were charged to the grant based on predetermined rates. We do not agree with
CPDC’s interpretation that timesheets not signed by both the employee performing the
work and the supervisor responsible for ensuring the work was performed, are
acceptable according to OMB Circular A-122. OMB Circular A-122 requires that
salaries and wage charges be based on documented payrolls approved by a
responsible official(s) of the organization. Concerning CPDC’s request that we provide
them the audit working papers to support our findings, we provided CPDC detailed
documentation on the cost items that we reviewed and questioned at the end of our field
work in July 2006.


U.S. Department of Labor—Office of Inspector General                                         5
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

We disagree with CPDC’s position that the grant agreement did not require them to
obtain an approved indirect cost rate before charging indirect costs to the grant. The
grant agreement required that CPDC comply with OMB Circular A-122. The Circular
requires that a nonprofit organization submit its initial indirect cost proposal immediately
after the organization is advised an award is made. Additionally, the Technical
Assistance Guide cited by CPDC cannot be used as criteria because CPDC is not a
One-Stop operator under the Workforce Investment Act.

Finally, we disagree with CPDC’s position that a review of their internal controls is
unnecessary because they already took corrective action. In the audit report, we
acknowledged corrective action CPDC took to address internal control weaknesses.
However, the corrective action took place outside the scope of our audit and we did not
evaluate the newly implemented internal controls. Therefore, we continue to
recommend a review of CPDC’s internal controls to verify that they are operating and
effective.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Recover the $870,821 in questioned salary and indirect costs charged to the grant.

2. Require CPDC to re-submit the final grant close-out package with revised outcomes.

3. Prior to awarding future grants to CPDC, perform a review to ensure:

    •   CPDC has implemented a financial accounting system sufficient to track costs
        and meet Federal accounting and reporting standards;
    •   CPDC has in place adequate internal accounting controls to ensure the integrity
        and accuracy of financial data;
    •   CPDC has a Federally approved indirect cost plan; and

CPDC had implemented a management information system to ensure that reported
performance data is accurate, supportable, and reliable.




6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an
audit of a complaint involving an H-1B Technical Skills Training Grant awarded by
DOL’s Employment and Training Administration (ETA) to the Community Preservation
and Development Corporation (CPDC).

In June 2004, OIG’s Complaints Analysis Office received a letter alleging the misuse of
H-1B Technical Skills Training Grant funds by CPDC. The complainant alleged that
CPDC:

   1. allocated salary expenses to the grant for staff not directly involved in providing
      H-1B services;

   2. used grant funds, intended for Washington, D.C. residents, to provide services to
      out-of-state residents;

   3. reported outcome data that were dubious;

   4. did not meet its matching funds requirement;

   5. used H-1B grant funds to develop CPDC’s website; and

   6. spent proceeds from certain properties to purchase surplus equipment to be
      used at other properties.

We did not perform specific audit work on allegation numbers 2, 5, and 6. For allegation
number 2, we found the grant did not limit services to Washington, DC residents. The
grant agreement specifically stated that areas affected by the project were Washington,
DC, Montgomery County Maryland, and Northern Virginia. For allegation numbers 5
and 6, the complainant could not provide specific information and nothing came to our
attention during the audit to indicate the allegations were substantiated. Therefore, our
objectives were to answer the following questions:


U.S. Department of Labor—Office of Inspector General                                         7
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

    1. Did CPDC ensure that costs charged to the grant were reasonable, allowable,
       and allocable?

    2. Were the reported participant outcome data valid and reliable?

    3. Did CPDC meet the $2.6 million matching funds requirement according to the
       grant agreement?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our objectives, scope, methodology, and criteria are
detailed in Appendix B.

Objective 1 – Did CPDC ensure that costs charged to the grant were reasonable,
allowable, and allocable?

Results

CPDC did not ensure that costs charged to the grant were allowable and allocable. We
found that CPDC did not accurately report, allocate, and support salary costs and
CPDC charged indirect costs to the grant without an approved indirect cost plan.
Although our testing of contractor expenses identified exceptions, we found unclaimed
costs that offset the amount of exceptions. Therefore, CPDC incurred a sufficient
amount of costs to support the amount contractor expenses charged as a Federal share
to the grant. Nothing came to our attention to question the reasonableness of costs we
tested. These conditions occurred because CPDC did not have adequate internal
controls in place. As a result, CPDC charged $870,821 in salary and indirect costs to
the DOL grant that did not meet the cost principle requirements established by Office of
Management and Budget (OMB) Circular A-122 for costs charged to Federal grants by
nonprofit organizations. (See Exhibit A).

Salary Costs

CPDC did not ensure that salary costs charged to the grant were allowable and
allocable. We found that CPDC:

    a. overstated the salary costs reported on the Financial Status Report (FSR) by
       $572,709;

    b. used pre-determined rates to allocate $29,915 of salary costs for employees who
       charged time to more than one grant or project; and

    c. could not adequately support 151 of the 155 randomly sampled payroll entries
       we audited which represented unsupported salary costs charged to the grant
       totaling $92,140.



8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

These problems occurred because CPDC did not have adequate internal controls in
place to ensure costs charged to the grant were allowable and allocable. Specifically,
CPDC used electronic spreadsheets (Detail Support Schedules) to accumulate grant
related costs and report quarterly FSRs. CPDC used these Detail Support Schedules
because its general ledger did not have the capability to provide detailed costs at the
grant or project level. Also, CPDC used predetermined rates to allocate salary costs
because CPDC officials believed it would be too difficult to track actual time spent on
the grant for administrative positions. Finally, CPDC did not have controls to ensure
that payroll costs were adequately documented until it implemented a new web-based
payroll system in June 2005, after the grant period ended. As a result, CPDC charged
$694,764 in salary costs that did not meet OMB Circular A-122 standards.

The complaint alleged questionable time charges and allocations to the H-1B grant
involving the Office of The President (OTP) and the Office of the Director (OTD). We
obtained and analyzed listings of all personnel who worked in the OTP during the grant
period and found no direct time charges. Our audit procedures for salary costs focused
on 17 employees. We did not include salary costs for Career and Skills Enhancement
(CSE) employees because they were not cited in the complaint and we determined that
the risk was low that these employees spent time on activities not related to the grant.
Our results pertaining to this allegation are detailed in further under items b. and c.

The following are details of our audit of salary costs.

a. CPDC Overstated Salary Costs Reported on the FSR

According to the final FSR, CPDC reported $1,855,449 for Salaries and Wages;
however, the Detail Support Schedules showed only $1,282,739, a difference of
$572,709. Therefore, the Salary and Wages on the FSR were overstated by $572,709.
In response to our questions, CPDC concurred with the difference and explained that
the cause may be contractor costs were mixed with salary costs. (See Exhibit B for final
costs).

Title 29 of the Code of Federal Regulations (CFR) part 95 provides the uniform
administrative requirements for non-profit organizations. Section 95.21(b), requires that
the recipient's financial management systems provide the following:

    •   Accurate, current, and complete disclosure of the financial results of each
        Federally-sponsored project or program in accordance with the reporting
        requirements set forth in Section 95.52.

    •   Records that identify adequately the source and application of funds for
        Federally-sponsored activities. These records shall contain information
        pertaining to Federal awards, authorizations, obligations, unobligated balances,
        assets, outlays, income and interest.




U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

     •   Effective control over and accountability for all funds, property and other assets.
         Recipients shall adequately safeguard all such assets and assure they are used
         solely for authorized purposes.

     •   Written procedures for determining the reasonableness, allocability and
         allowability of costs in accordance with the provisions of the applicable Federal
         cost principles and the terms and conditions of the award.

     • Accounting records including cost accounting records that are supported by
       source documentation.

Because CPDC's accounting system did not adequately identify the source and
application of funds for Federally-sponsored activities, it did not meet all the required
financial standards. CPDC did not use its general ledger to report grant costs on the
FSR because it was not capable of separating costs by funding source. Instead, CPDC
used manually prepared electronic spreadsheets as their Detail Support Schedules.
We performed tests and confirmed that CPDC did not report the costs on these Detail
Support Schedules to projects funded by other grants. We concluded that manually
prepared reports increase the risk of errors and inaccurate reporting. Additionally,
CPDC did not have a formal policies and procedures manual for determining the
reasonableness, allowability, and allocability of costs in accordance with the provisions
of the applicable Federal cost principles and the terms and conditions of the award.

b. CPDC Used Predetermined (Budgeted) Rates to Allocate Salary Costs to the Grant

To determine if salary costs were based on actual time, we reviewed payroll
documentation for non-CSE employees who had time charged to the H-1B grant. In
addition to 14 OTD and information technology (IT) employees, we examined the salary
costs for 3 employees from the Department of Youth Development and Department of
Empowerment who performed H-1B program functions and charged some time to the
grant. The salary costs for these employees totaled $453,892. For 5 of the 17
employees, we found that CPDC charged $29,915 in salary costs to the grant based on
pre-determined rates. CPDC properly used actual time for the balance of the salary
costs charged to the H-1B grant for the 17 employees tested.

OMB Circular A-122, Attachment B, paragraph 7.m -Support of salaries and wages,
requires the following:

     (1) Charges to awards for salaries and wages, whether treated as direct costs or
         indirect costs, will be based on documented payrolls approved by a responsible
         official(s) of the organization. The distribution of salaries and wages to awards
         must be supported by personnel activity reports, as prescribed in subparagraph
         (2), except when a substitute system has been approved in writing by the
         cognizant agency. (See subparagraph E.2 of Attachment A.)




10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

   (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals) whose
       compensation is charged, in whole or in part, directly to awards. In addition, in
       order to support the allocation of indirect costs, such reports must also be
       maintained for other employees whose work involves two or more functions or
       activities if a distribution of their compensation between such functions or
       activities is needed in the determination of the organization's indirect cost rate(s)
       (e.g., an employee engaged part-time in indirect cost activities and part-time in a
       direct function). Reports maintained by non-profit organizations to satisfy these
       requirements must meet the following standards:

          •   The reports must reflect an after-the-fact determination of the actual
              activity of each employee. Budget estimates (i.e., estimates determined
              before the services are performed) do not qualify as support for charges to
              awards.

          •   Each report must account for the total activity for which employees are
              compensated and which is required in fulfillment of their obligations to the
              organization.

          •   The reports must be prepared at least monthly and must coincide with one
              or more payroll entries.

For the 17 employees we reviewed the Detail Support Schedules to determine if CPDC
used predetermined rates to charge their costs to the grant. We identified payroll
entries in which CPDC used a formula to allocate hours. For each employee, we
examined the timesheets to confirm that CPDC used a formula to charge salaries rather
than actual hours. We found $29,915 in salary costs that CPDC charged to the grant
using pre-determined rates.

CPDC’s timekeeping system did not consistently track hours for employees who worked
on H-1B and other projects. CPDC officials stated that it would be too difficult to track
the actual hours spent on the grant for administrative staff. As a result, CPDC could not
support the pre-determined rates were accurate.

c. CPDC Could Not Adequately Support 151 of the 155 Payroll Entries Audited

We tested a random sample of 155 payroll entries for 14 OTD and IT staff. Our
statistical projection of the errors found in our testing, showed that CPDC could not
support at least $92,140 in salary costs, with a 95 percent confidence level, charged to
the grant.

OMB Circular A-122, Attachment B, paragraph 7. m. (1), states charges to awards for
salaries and wages, whether treated as direct costs or indirect costs, will be based on
documented payrolls approved by a responsible official(s) of the organization.



U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

We found errors with 151 out of the 155 payroll entries tested. These errors represented
differences between the supporting timesheet and the amounts CPDC charged to the
grant and resulted in an overstatement of salary costs of $26,443. 1 Our statistical
projection of the errors showed salary costs of at least $92,140, with a 95 percent
confidence level, that CPDC charged to the grant were not adequately supported. Also,
our attribute testing of the same 155 randomly selected payroll entries found10
timesheets were not in the file, 52 timesheets were not signed by the employee, and 43
timesheets were not signed by the supervisor.

CPDC officials stated that in 2002 and 2003, there was not much emphasis on
documentation in general. However, controls are now in place with the implementation
of a web-based payroll system. For example, payroll is not processed unless a
supervisor approves it.

Indirect Cost

CPDC did not have a Federally approved indirect cost rate to charge indirect costs to
the grant. This occurred because CPDC officials believed that an approved rate was
not necessary as long as the amounts charged to the grant were within the budget.
Additionally, CPDC could not provide adequate support of the methodology used to
charge indirect costs to the grant. Therefore, we questioned the $176,057 in indirect
costs CPDC charged to the grant.

OMB Circular A-122, Attachment A, paragraph A.4.a states that a cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received. Also, OMB Circular A-122, Attachment
A, section D.1.b states:

      Where an organization has several major functions that benefit from its
      indirect costs in varying degrees, allocation of indirect costs may require
      the accumulation of such costs into separate cost groupings which then are
      allocated individually to benefiting functions by means of a base that best
      measures the relative degree of benefit. The indirect costs allocated to
      each function are then distributed to individual awards and other activities
      included in that function by means of an indirect cost rate(s).

OMB Circular A-122, Attachment A, paragraph E.2.b, requires that a nonprofit
organization which has not previously established an indirect cost rate with a Federal
agency shall submit its initial indirect cost proposal immediately after the organization is
advised an award will be made, and in no event, later than 3 months after the effective
date of the award.

The grant closeout package showed the grant budget for indirect costs was $114,006
and the final FSR showed CPDC charged $176,057.

1
  Of the 151 errors; 104 were over $5 and the remaining 47 were less than $5. The $26,443 represents
the total overstatement of salary costs from the 151 errors.

12                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

CPDC officials stated they did not submit an indirect cost proposal because they were
not aware that an approved indirect cost rate was required. They believed indirect costs
were included in the detail grant budget approved by ETA. Additionally, CPDC officials
told us they consulted with the independent public accountant that conducted their OMB
Circular A-133 Audit and were advised the amount charged to the grant would be
acceptable if it was in the grant budget.

The independent accountant’s management letter for the FY 2004 OMB Circular A-133
audit report reported that CPDC’s allocation methods were labor intensive, not easily
understood and changed yearly.

We question the $176,057 of indirect costs CPDC charged to the grant because CPDC
did not have the required approved indirect cost plan.

Contract Expenses

Although our testing of contractor expenses found $218,402 in exceptions, CPDC
incurred a sufficient amount of costs they did not claim to offset these exceptions.
Therefore, CPDC incurred reasonable, allowable and allocable contract expenses to
support the $343,238 reported as the Federal share on the FSR.

Although CPDC’s Detail Support Schedules showed it incurred $1,247,661 in contractor
expenses for the grant, CPDC charged $343,238 as the Federal share to the grant.
This amount represented the budget for contractual services in the grant and appeared
as an adjusting entry on its Detail Support Schedules. CPDC could not provide us the
specific contract expenses that supported the $343,238 charged to the grant.
Therefore, we audited the amount of contactor expenses on the Detail Support
Schedules. The following provides the tests performed and the results.

We tested all 25 contract charges over $4,000, which totaled $154,361. The results
identified three exception categories totaling $41,550.

   •   CPDC made five payments to a contractor, totaling $35,459, for fund raising
       activities which is not an allowable direct cost. According to OMB Circular A-122,
       dated June 1998, Attachment B, Selected Items of Cost, 23 - Interest, Fund
       Raising, and Investment Management Costs, paragraph b, costs of organized
       fundraising, solely to raise capital or obtain contributions are unallowable.

   •   CPDC paid $5,941 staffing services for which there was no contract.

   •   One contactor overcharged CPDC $150 for information technology services.

We tested a random sample of 120 contract charges for less than $4,000, excluding
invoices under $100. The charges tested totaled $86,462. We found 39 exceptions
totaling $22,431. The following table provides the number, reason, and costs for the
exceptions found.

U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

         Number of
                                      Reason                               Costs
         Exceptions
             24     No contract for services provided.                      $14,254
                    Services provided were not according to
             9                                                                  $6,367
                    the contract or for the hours worked.
             3      No Invoice to support cost.                                 $1,000
             3      Services were not related to the grant.                      $810

We statistically projected the exceptions and concluded they resulted in an
overstatement of contractor expense of at least $172,652 with a 95 percent confidence
level.

We tested contractors in our sample of 120 contract charges that provided personal
services to determine if the invoice amount agreed with the amounts reported on the
IRS Form 1099. We found one contractor in which the amount charged to H-1B
exceeded the amount shown on the IRS Form 1099 by $4,200. CPDC officials
confirmed that the 1099 was correct and the Detail Support Schedule was overstated.
Therefore, we concluded CPDC overstated contactor expenses by $4,200.

Although our testing of contractor expenses found $218,402 in exceptions, CPDC
incurred a sufficient amount of costs not charged to the grant to offset the exceptions.
We concluded that the actual contractor service costs were $1,029,259 and not the
$1,247,661 on the Detail Support Schedules. Since CPDC only charged the budgeted
amount of $343,238, we concluded that the remaining balance of $686,021 can be
reported as part of the grant’s matching fund requirement. See results under
Objective 3.

     *            *              *             *              *             *             *

We concluded the above conditions occurred because CPDC had inadequate internal
controls to ensure that costs charged to the grant were allowable and allocable. We
found that CPDC did not have comprehensive accounting policies and procedures,
adequate accounting staff, nor an adequate accounting system.

CPDC did not have comprehensive written accounting policies and procedures.
Instead, the accounting policies and procedures consisted of a series of e-mails and
memorandums issued to the staff. We reviewed the e-mails and memorandums and
concluded they were inadequate because they did not provide details on how to report
H-1B grant costs on the Detail Support Schedules and how to prepare the FSR.

According to CPDC officials, they did not have sufficient accounting staff during the
grant. CPDC officials told us they experienced significant staff turnover during the
grant, and the accounting department only consisted of a controller, senior accounting
staff and an accounts payable clerk. Most accounting officials during the audit period
were not employed during the grant period. CPDC has added a Chief Financial Officer
position and an additional Senior Accountant position.

14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

CPDC did not track H-1B grant related costs separately in the general ledger, but
instead included the costs as part of CSE costs. Therefore, CPDC maintained manually
prepared electronic spreadsheets to keep track of the H-1B costs until June 2004 even
though they implemented a new general ledger system in October 2003. CPDC used a
manual time keeping until June 2004 when they implemented an internally developed
web-based time keeping system. In June 2005, after the H-1B grant period ended,
CPDC changed to a contractor developed web-based time keeping system.

Objective 2 – Were the reported participant outcome data valid and reliable?

Results

CPDC’s reported participant outcome data were not valid or reliable. We found CPDC
overstated the reported number of participants trained, placed in employment, and
received promotions and/or wage gains. This occurred because CPDC did not have
internal controls in place to ensure that it had a management information system that
accurately tracked participant activity, maintained evidence to support participant
outcome data, and accurately reported outcome data to ETA. As a result, CPDC
overstated its participant outcome data and did not meet the outcome goals of the grant.
(See Exhibit C).

According to the grant agreement, CPDC was to provide advanced high-skilled IT
training programs under the H-1B program. Over the 2-year grant period, CPDC
planned to train 562 out-of-work and marginally employed residents from the region,
and place at least 350 of those trained participants into positions that were either
unfilled, or filled by H-1B visa holders. Although the grant agreement did not address
the number of participants that CPDC planned to receive promotions and/or obtain
wage gains, ETA required the grantee to report these outcomes on the H-1B Technical
Skills Training Grants Quarterly Report.

29 CFR Subtitle A, Parts 95.50 and .51 sets forth procedures for monitoring and
reporting on the recipient’s financial and program performance. Subpart 95.51 (a)
states “Recipients are responsible for managing and monitoring each project, program,
sub award, function or activity supported by the award.” Subpart 95, 51(d) requires
recipients to report reasons why established goals were not met.

The outcome data CPDC reported on ETA’s H-1B Technical Skills Training Grants
Quarterly Report were not valid and reliable. The following section provides details of
the reported outcome data.

Training Completions

On the final H-1B Technical Skills Training Grants Quarterly Report, CPDC reported
557 participants completed training. From testing of a random sample of 85
participants, we concluded the reported number was overstated by 332.


U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

We obtained CPDC's supporting schedules of the reported number of participants
trained. The schedule listed 568 names, 11 more than what was reported. From
CPDC's listing of 568 participants, we randomly selected 85 for testing. We tested for
evidence that the participant completed the training and found there was insufficient
evidence for 59 of the 85 participants tested. We projected that CPDC had insufficient
evidence to support at least 343 of the 568 participants, with a 95 percent confidence
level, who were recorded as having completed training. Therefore, we are 95 percent
confident that the number of completers was overstated by at least 332 participants.

Job Placements

On the final H-1B Technical Skills Training Grants Quarterly Report, CPDC reported 80
job placements. We tested all the job placements and concluded the reported number
was overstated by 23.

We obtained CPDC's supporting schedule of the reported number of participants placed
in jobs. The supporting schedule showed 81 participants. We tested the entire
universe on the supporting schedule of 81 placements and found 24 exceptions (30
percent error rate). Specifically, we found:

     •   18 reported placements had no supporting documentation.
     •    4 reported placements had the same job prior to training.
     •    2 placement files could not be located.

Therefore, CPDC had records to support 57 of the 81 recorded placements. This is
significantly less than the 350 participants that CPDC planned to place in new jobs.

Promotions and Wage Increase

On the final H-1B Technical Skills Training Grants Quarterly Report, CPDC reported 27
participants received promotions and 24 participants received wage increases as a
result of the H-1B training. We tested all the promotions and wage increases and
concluded they were overstated by 17 and 14, respectively.

We obtained CPDC's supporting schedule of the reported number of participants
receiving promotions and/or wage increases as a result of the H-1B training. The
schedule contained 28 participants who received promotions and 26 participants who
received wage increases. We tested the entire universe of promotions and wage gains
on the supporting schedules. The results determined 10 promotions were supported;
the 18 exceptions represent a 64 percent error rate. The results determined 10 wage
increases were supported; the 16 exceptions represent a 62 percent error rate. The
exceptions were the result of insufficient evidence and missing case files. Therefore,
CPDC had support for only 10 promotions and 10 wage increases.




16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

The above conditions occurred because CPDC did not have internal controls in place to
ensure that it had a management information system that accurately tracked participant
activity, maintained evidence to support participant outcome data, and accurately report
outcome data to ETA. CPDC initially used an automated management information
system called Xenegrade to record participant activity but CPDC was unsuccessful in
using it to generate reports to support the outcome data. Therefore, CPDC stopped
using the system and instead used electronic spreadsheets to track and report outcome
data. Also, CPDC did not have policies and procedures for recording and tracking
participant attendance, program completion, job placement, and participant wages and
promotions.


Objective 3 – Did CPDC meet the $2.6 million matching funds requirement according to
the grant agreement?

Results
CPDC met the required matching fund contribution for the grant. The grant agreement
showed CPDC had a matching contribution requirement of $2,602,848. On their final
FSR, CPDC reported matching contributions of $3,529,324, but we identified
$1,605,983 in unsupported matching costs. Conversely, we found $686,021 in
allowable and unreported contractor costs that CPDC could include towards its
matching requirements. Therefore, CPDC met the required matching fund contribution
by $6,514.

Title 29 CFR part 95.23(a) - Cost Sharing or Matching, states all contributions, including
cash and third party in-kind, shall be accepted as part of the recipient’s cost sharing or
matching when such contributions meet all of the following criteria:

   (1)    Are verifiable from the recipient’s records.

   (2)    Are not included as contributions for any other Federally-assisted project or
          program.

   (3)    Are necessary and reasonable for proper and efficient accomplishment of
          project or program objectives.

   (4)    Are allowable under the applicable cost principles.

   (5)    Are not paid by the Federal Government under another award, except where
          authorized by Federal statute to be used for cost sharing or matching.

   (6)    Are provided for in the approved budget when required by DOL,

   (7)    Conform to other provisions of this part, as applicable.



U.S. Department of Labor—Office of Inspector General                                        17
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

The grant agreement required CPDC to contribute $2,602,848 in non-Federal matching
funds. According to their final FSR, dated December 31, 2004, CPDC reported
matching contributions of $3,529,324, which consisted of $1,525,943 for third party in-
kind contributions and $2,003,381 for cash matching. These amounts reconciled to
CPDC’s Detail Support Schedules. We audited $2,814,928 (80 percent) of the reported
matching contributions.

We identified unsupported costs totaling $1,605,983. Using the Detail Support
Schedules, we judgmentally selected six cost categories because they were large
amounts.

The following provides details of the exceptions we found in the expenses we audited.

     1.    Consultant Adjustment. The Detail Support Schedules showed an entry
           “Consultant Adjustment” for $101,572, dated December 31, 2004. CPDC
           officials told us there was no support for the entry and they could not provide
           the details or purpose of the entry.

     2.    IT Matching. The Detail Support Schedules showed an entry “IT Matching”
           for $231,643, dated June 30, 2004. CPDC officials told us there was no
           support for the entry and they could not provide the details or the purpose of
           the entry.

     3.    Teaming for Technology. The Detail Support Schedule showed a $15,000
           entry that was supported only by a note stating “United Way Services of
           $15,000”. We concluded this was not sufficient to support the costs because
           it did not provide details on the services provided and how it was related to
           the purpose of the grant.

     4.    Software Depreciation. The Detail Support Schedule showed a charge of
           $806,481 that represented depreciation expenses for the Microsoft, Plato
           Academic, and Valpar International software assets. We recalculated the
           depreciation expense and found the amount reported was overstated by
           $34,896.

     5.    Cleaning and Maintenance. This charge of $526,757 represented cleaning
           and maintenance expenses for CPDC’s training facilities. For matching,
           CPDC claimed rent expenses of $309,907. We found that CPDC overstated
           this amount by $112,067. We determined that 6,182 square feet of rental
           space was available at the Edgewood location. At $10 per square foot, the
           maximum monthly rent is $6,182.48. Based on the length of the grant, the
           total amount of rent expensed that CPDC should have charged as matching
           was $197,839 ($6,182.48 x 32 months).




18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                         Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

  In addition to the above exceptions, we also identified $1,110,805 in indirect costs that
  CPDC included in their reported matching contribution. As presented in the results
  under Objective 1 on indirect costs charged as a Federal share to the grant, CPDC did
  not have an approved indirect cost plan as required by the OMB Circular A-122. Since
  these costs did not meet the OMB Circular A-122 cost principles, CPDC cannot report
  these costs as matching.

  Overall, we identified $1,605,983 in unsupported matching costs that CPDC reported for
  the grant. However, as presented in the results under Objective 1 on contactor
  expenses, we found that CPDC incurred $686,021 in costs that they did not claim for
  reimbursement on the FSR as a Federal share. Therefore, we concluded that CPDC
  can report these costs as matching funds. We reduced the net unsupported costs from
  $1,605,983, to $919,962. The following table summarizes the calculations of
  questioned matching fund costs.
         Cost Item         Amount Claimed        Exception                Amount Questioned
Consultant Adjustment            $ 101,572 Not supported                           $ 101,572
IT Matching                      $ 231,643 Not supported                           $ 231,643
Teaming for Technology           $ 15,000 Not supported                            $ 15,000
Software Depreciation            $ 806,481 Overstated                              $ 34,896
Cleaning and Maintenance         $ 526,757 Overstated                              $ 112,067
Indirect Cost Matching           $1,110,805 Not Approved                          $1,110,805
Total Questioned Matching Funds                                                    $1,605,983
Reduce Adjustments by Allowable Contractor Costs not Claimed                       $ (686,021)
Adjusted Amount to Questioned Matching Funds                                       $ 919,962

  After reducing the reported $3,529,324 matching contribution by the adjustment of
  $919,962 to the corrected $2,609,362 contribution, we determined CPDC met the
  matching fund requirements of $2,602,848.

  CPDC’s Response

  On behalf of CPDC, CPDC’s legal counsel responded to the draft report. Concerning
  the report’s finding that CPDC did not accurately report salary costs, CPDC responded
  that the questioned costs represented contractors who provided services to CPDC
  instead of employees. For the salary costs questioned because they were allocated to
  the grant based on pre-determined rates, CPDC responded that these costs were for
  activities directly related to the grant. For the salary costs questioned for unsupported
  timesheets, CPDC stated that in order to respond, they need to be provided the audit
  working papers that supported the finding. They responded that time sheets not signed
  by at least the employee or supervisor should be acceptable because OMB Circular A-
  122 does not require that both the employee or supervisor sign the timesheet as long as
  one of them signs it. CPDC also requested the audit working papers that supported
  other questioned salary costs.




  U.S. Department of Labor—Office of Inspector General                                        19
  Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

Concerning the questioned indirect costs, CPDC responded that failure to have an
indirect cost rate is not sufficient to disallow the indirect costs charged to the grant.
They stated that the grant agreement provided that an indirect cost rate was not
applicable. Additionally, CPDC stated that DOL’s One-Stop Comprehensive Financial
Management Technical Assistance Guide provided numerous methods for allocating
costs and stated that indirect costs are usually recaptured through an indirect cost rate.
CPDC responded that if an indirect cost rate was mandatory, then the Technical
Assistance Guide would not have contained this qualified language.

CPDC responded that they will re-submit a final grant close-out package with revised
outcomes.

Concerning the recommendation that the Assistant Secretary for Employment and
Training perform a review of CPDC’s internal controls, CPDC stated it would be an
unnecessary diversion of CPDC’s resources because they had taken corrective action
on internal controls.

See Appendix D for the complete response from CPDC.

OIG Conclusion

CPDC’s response did not change our findings and recommendations. For the
overstated salary and wages costs, it will be the decision of ETA’s Grant Officer to allow
grants funds budgeted for salary and wages to be used to pay for contractor costs. If
ETA’s Grant Officer allows CPDC to use grant funds budgeted for salary to pay for
contractor costs, then ETA’s Grant Officer will have to consider how this would affect
our audit results of contractor costs and matching fund costs. CPDC’s response did not
provide any information to change our conclusion that they charged employee costs to
the grant based on predetermined rates. We do not agree with CPDC’s interpretation
that timesheets not signed by both the employee performing the work and the
supervisor responsible for ensuring the work was performed, are acceptable according
to OMB Circular A-122. OMB Circular A-122 requires that salaries and wage charges
be based on documented payrolls approved by a responsible official(s) of the
organization. Concerning CPDC’s request that we provide them the audit working
papers to support our findings, we provided CPDC detailed documentation on the cost
items that we reviewed and questioned at the end of our field work in July 2006.

We disagree with CPDC’s position that the grant agreement did not require them to
obtain an approved indirect cost rate before charging indirect costs to the grant. The
grant agreement required that CPDC comply with OMB Circular A-122. The Circular
requires that a nonprofit organization submit its initial indirect cost proposal immediately
after the organization is advised an award is made. Additionally, the Technical
Assistance Guide cited by CPDC cannot be used as criteria because CPDC is not a
One-Stop operator under the Workforce Investment Act.




20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

Finally, we disagree with CPDC’s position that a review of their internal controls is
unnecessary because they already took corrective action. In the audit report, we
acknowledged corrective action CPDC took to address internal control weaknesses.
However, the corrective action took place outside the scope of our audit and we did not
evaluate the newly implemented internal controls. Therefore, we continue to
recommend a review of CPDC’s internal controls to verify that they are operating and
effective.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

1. Recover the $870,821 in questioned salary and indirect costs charged to the grant.

2. Require CPDC to re-submit the final grant close-out package with revised outcomes.

3. Prior to awarding future grants to CPDC, perform a review to ensure:

    •   CPDC has implemented a financial accounting system sufficient to track costs
        and meet Federal accounting and reporting standards;
    •   CPDC has in place adequate internal accounting controls to ensure the integrity
        and accuracy of financial data;
    •   CPDC has a Federally approved indirect cost plan; and
    •   CPDC had implemented a management information system to ensure that
        reported performance data is accurate, supportable, and reliable.




Elliot P. Lewis
July 20, 2006




U.S. Department of Labor—Office of Inspector General                                        21
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




Exhibits




U.S. Department of Labor—Office of Inspector General                                        23
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                                  EXHIBIT A




                             Schedule of Questioned Costs

                            Item                                  Amount Questioned
    Overstated Salary Costs Reported on the FSR                            $ 572,709
    Pre-determined Rates Used to Allocate Salary Costs                     $ 29,915
    Unsupported Salary Costs                                               $ 92,140
    Indirect Costs Charged Without an Approved Plan                        $ 176,057
                                                   Total                   $ 870,821




U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                                  EXHIBIT B

                       CPDC’S Final Detailed Statement of Costs

                                                                 Cumulative
         Cost Category                       Grant Budget
                                                                 Costs
         Salaries and Wages                       $1,824,614            $1,855,449

         Fringe Benefits                               210,900              143,975

         TOTAL PERSONNEL COSTS                    $2,035,514            $1,999,424

         Other Costs

         Travel                                   $     10,028          $      2,129

         Equipment                                      16,000               29,881

         Supplies                                       43,806               43,759

         Contractual                                   343,238              343,238

         Other Expenses:                                31,896

         Indirect Costs                           $ 114,006             $ 176,057

         TOTAL OTHER EXPENSES                          558,974              595,064

         TOTAL GRANT COSTS                        $2,594,488            $2,594,488




U.S. Department of Labor—Office of Inspector General                                        27
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                                  EXHIBIT C


           CPDC’S Performance According to the Final Quarterly Report
                               January 1, 2005

    ETA Reporting Information                                      Cumulative Totals

    Completed Training                                                                557
    Training Expected to be Completed by Project End Date                             562
    New Job Placements from H-1B Training                                              80
    Job Promotions from H-1B Training                                                  27
    Wage Increases from H-1B Training                                                  24
    Certification or Degrees Received by Individuals
    as Result of H-1B Training
    Microsoft Office Specialist                                                         2
    Certification Introduction Computer and MS Applications                           292
    Certification Completion Evening Web Class                                         66
    Gateway Certification (Honors Certificate)                                        101
    Graduation Certificate                                                             69
    Certification of Participation                                                     45




U.S. Department of Labor—Office of Inspector General                                        29
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




Appendices




U.S. Department of Labor—Office of Inspector General                                        31
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                               APPENDIX A
BACKGROUND

The purpose of the H-1B program was to respond to demands from industries
experiencing skill shortages in areas such as information technology. The H-1B
Technical Skills Training Grants were intended to be a long-term solution to domestic
skill shortages in high skill and high technology occupations. H-1B Technical Skills
Training Grants were for developing and operating high skills training programs for
unemployed and employed workers. These grants were financed by a user fee paid by
employers to bring foreign workers into the U.S. under an H-1B nonimmigrant visa.

The Immigration and Nationality Act, implemented in 1992, established the H-1B visa
category for non-immigrants who sought to work in high skill or specialty occupations,
and set annual limits of 65,000 on the number of H-1B visas granted. In an effort to
help employers access skilled foreign workers and compete internationally, Congress
enacted the American Competitiveness and Workforce Improvement Act of 1998
(ACWIA), Public Law 105-277, in October 1998.

H-1B Technical Skills Training Grants had the long-term goal of raising the technical
skill levels of American workers in order to fill specialty occupations presently filled by
temporary workers admitted to the United States under the provisions of the
H-1B visa.

In May 2004, ETA awarded a $2,594,488 grant to CPDC for a project entitled the H-1B
Technical Skills Training Grant. The grant covered the period May 1, 2002 through
May 1, 2004. ETA subsequently amended the grant period to extend through
December 31, 2004.

CPDC is a non-profit Corporation that creates financially sound, socially responsible,
affordable housing. Its primary mission is to revitalize and rehabilitate run down and
distressed housing communities. CPDC also provides a range of community
development programs such as Youth Development, Career Enhancement, and
Community Empowerment Activities. The grant agreement stated that CPDC
incorporated technical training and technology in delivering community services,
education, empowerment, employment skills training, and youth development programs
for residents. Since its founding in 1989, CPDC has redeveloped 17 communities.
Edgewood Terrace, a 16-acre, 884-unit community in northeast Washington, DC, is
CPDC’s flagship development.

CPDC networked with technology companies and major employers throughout the
region to develop its Career Enhancement Program. The program recognized the
needs for skilled workers who could enter IT career ladders with requisite skills, and
progress rapidly along a chosen career path into more challenging and rewarding
positions. To address perceived regional needs, CPDC implemented the Career
Enhancement Program at two sites; one in the District of Columbia and another in
Alexandria, Virginia, forming collaborative relationships with educational institutions,

U.S. Department of Labor—Office of Inspector General                                          33
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

corporate partners and community based agencies to maximize benefits throughout
those communities. The participating organizations included:

         Alexandria Re-Development Housing Authority
         DC Office of Aging
         Digital Sistas
         DC Employment Services One-Stop Centers
         Edgewood Brookland Family Support Collaborative
         Enterprise Staffing Services
         Howard University Center for Urban Progress
         Second Chances Employment Services
         Catholic University of America
         George Washington University
         Washington Gas

During the period July 1, 2002 through June 30, 2005, the Career Skills Enhancement
within CPDC received funding from several different sources. These sources included
government and non-government grants. Total funding from all sources was
approximately $4.5 million; the H-1B Technical Skills Training Grant made up 58
percent of the total funding during this time period.

After receiving the H-1B Technical Skills Training Grant , CPDC expanded their existing
program to create the H-1B Visa Career Skills Training activities. The following
locations were used for the program.

     -   Edgewood Terrace community in northeast Washington, DC
     -   Buckman Road community in Alexandria, Virginia
     -   Park Montgomery community in Silver Spring, Maryland
     -   Stewartown Homes in Gaithersburg, Maryland

According to the grant proposal, over the 2-year period of the grant, CPDC planned to
train 562 out of work or marginally employed residents of the region. CPDC planned to
place at least 350 of participants trained into positions that were either unfilled, or filled
by H-1B visa holders. CPDC planned to offer training in web development, networking,
technical support, Microsoft Office applications, and several core entry level and
industry specific competencies. The grant proposal did not specify the number of
trained participants CPDC planned to receive a promotion or wage gain. CPDC
developed training centers called Gateway Learning Centers at various property
locations, but their primary training location was Edgewood Terrace apartments.




34                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

In June 2004, OIG received a letter alleging the misuse of H-1B Technical Skills
Training Grant funds by CPDC. The complainant alleged that CPDC:

   1. allocated salary expenses to the grant for staff not directly involved in providing
      H-1B services;

   2. used grant funds, intended for Washington, D.C. residents, to provide services to
      out-of-state residents;

   3. reported outcome data that were dubious;

   4. did not meet its matching funds requirement;

   5. used H-1B grant funds to develop CPDC’s website; and

   6. spent proceeds from certain properties to purchase surplus equipment to be
      used at other properties.

We did not perform specific audit work on allegation numbers 2, 5, and 6. For allegation
number 2, we found the grant did not intend to be limited to only Washington, DC
residents. The grant agreement specifically stated that areas affected by the project
were Washington, DC, Montgomery County Maryland, and Northern Virginia. For
allegations numbers 5 and 6, the complainant could not provide information and nothing
came to our attention during our audit to indicate that the allegations could be
substantiated. Therefore, our objectives were to answer the following questions:

   1. Did CPDC ensure that costs charged to the grant were reasonable, allowable,
      and allocable?

   2. Were the reported participant outcome data valid and reliable?

   3. Did CPDC meet the $2.6 million matching funds requirement according to the
      grant agreement?

Scope

Our audit covered the grant period May 1, 2002 through December 31, 2004. We
audited 93 percent of the $2,594,488 of the Federal share costs that CPDC charged to
the grant and reported on the final FSR. See Exhibit B for CPDC’s reported grant costs.
Based on the allegations in the complaint, we selected the following accounts and costs
for audit.

U.S. Department of Labor—Office of Inspector General                                        35
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                            Cost Categories               Cost
                            Salaries and Wages         $1,855,449
                            Minor Equipment                29,881
                            Contractual Services          343,238
                            Indirect Cost                176,057
                            Total Grant                $2,404,625

We also audited $2,814,928 in matching funds.

Internal Controls

Our work on internal controls included obtaining and reviewing policies, procedures, and
interviewing key personnel. We gained an understanding of the data flows in each audit
area and documented a description of the controls. Our testing of internal controls
focused only on the controls related to our objectives of assessing compliance with
significant laws, regulations, and policies and procedures and was not intended to form
an opinion on the adequacy of internal controls overall, and we do not render such an
opinion. Weaknesses noted in our testing are discussed in the Results and Findings
section of this report.

Auditing Standards

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Fieldwork was conducted from March 28th to
June 22, 2006. We performed our fieldwork at ETA’s Philadelphia Regional Office,
ETA’s National Office, and at CPDC’s main office and its training center at Edgewood
Terrace, both located in Washington, DC.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved, but it does not guarantee the discovery of illegal
acts, abuse, or all internal control weaknesses. We believe our audit provides a
reasonable basis for our assessment and conclusions.

The conclusions provided in this report are the result of our audit for the period May 1,
2002 to December 31, 2004, unless cited otherwise in this report. Changes in
management of the program, including changes in controls, laws, regulations, and other
compliance requirements, could result in performance that would be different from the
performance during that period.

Methodology

We met with ETA officials in the Philadelphia Regional Office and at National Office,
including the Grant Officers. From ETA we obtained grant documents, and we
performed on-site fieldwork at CPDC in the following areas:




36                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

Salary Expenses

We reconciled the final FSR to CPDC’s Detail Support Schedules and followed up on
differences found.

To determine if the salary costs CPDC charged to the grant were reasonable we
reviewed payroll records to establish whether these costs appeared excessive based on
our experience with work on other grantees.

To determine if the salary costs charged to the grant were allocable, in that they
represented actual time spent on grant functions or activities, we used the Detail
Support Schedules to identify the employees whose salary costs CPDC charged to the
grant. We did not include salary costs for CSE employees because they were not cited
in the complaint allegations and we determined that the risk was low that these
employees spent time on activities not related to the grant. Our analysis identified 14
OTD and IT staff whose salary costs CPDC charged to the grant.

To determine if salary costs were based on actual time, we reviewed payroll
documentation for non-CSE employees who had time charged to the H-1B grant. In
addition to the 14 OTD and IT employees, we examined the salary costs for three
employees from the Department of Youth Development and Department of
Empowerment who performed H-1B program functions and charged some time to the
grant. The salary costs for these 17 employee totaled $453,892.

The Department of Youth Development and Department of Empowerment had five
employees who charged time to the H-1B grant. The three employees we judgmentally
selected to examine their salary costs represented 88 percent of the total amount of
salaries charged by the five employees. To perform our testing we obtained and
reviewed the payroll registers, W-2's, timesheets, personnel files, job descriptions and
supporting salary spreadsheets.

To determine if the salary costs were allowable, we performed testing of the 14 OTD
and IT employees. We used the Detail Support Schedules to identify the universe of
amounts charged for each pay period. Our approach to testing the salary costs was to
review a sample of payroll entries for the 14 employees. We determined the universe of
payroll entries for the 14 OTD and IT employees totaled 646. Omitted were the payroll
entries in which predetermined rates were used because we audited them separately.
We developed a sampling plan and randomly selected 155 payroll entries for audit. To
perform our testing we obtained and reviewed the payroll registers, W-2's, timesheets,
personnel files, job descriptions and supporting salary spreadsheets.




U.S. Department of Labor—Office of Inspector General                                        37
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

Indirect Costs

To review indirect costs we reviewed the grant agreement, grant budget, and FSR to
identify the approved indirect cost rate and the amount of indirect costs charged to the
grant. We interviewed grantee officials about the methods used to report indirect
charges to the grant. We also reviewed the OMB Circular A-133 audits and referenced
management letters.

Contractor Expenses

For contractor costs, we reconciled the reported cost to the CPDC's Detail Support
Schedules and found that CPDC recorded $1,247,661 as contractor expenses and
$269,131 recorded as contractor cash matching. Of the $1,247,661 in contactor
expenses, CPDC only charged $343,238 to the grant because that was the amount
budgeted.

To determine if contractor costs were reasonable, we reviewed contracts and invoices
to establish whether these costs appeared excessive based on our experiences with
contractor services from work on other grantees.

To determine if contractor costs were allowable, we tested all 25 contract charges over
$4,000 totaling $154,361, and we statistically sampled the items under $4,000,
excluding items under $100. The universe of the remaining items consisted of 1,480
items totaling $1,106,015 and we sampled 120 items totaling $86,462.

Outcome Data

To audit the reported outcome data, we reviewed ETA's December 14, 2001, notice in
the Federal Register requesting applications for the H-1B Technical Skills Training
Grant Program to determine the outcome data reporting requirements. We then
reviewed the grant agreement narrative and identified the key outcome data. The key
outcome data identified were training completions, job placements, promotions, and
wage increases.

We obtained an understanding of CPDC's process for reporting these outcome data to
ETA on the H-1B Technical Skills Training Grants Quarterly Reports. We requested
CPDC's supporting documentation for the numbers reported. We reconciled the
numbers supported to the numbers reported.

We performed testing on a random sample of 85 participants from the universe of 568
who completed training. The test of participants who completed training was to
determine whether the student files contained evidence of completion such as student
transcripts and/or student performance evaluations; and the student certification.

For placements, promotions, and wage increases, we performed testing on the entire
outcome data reported.


38                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

The tests for placements were to determine whether:

   •   the students had a job before training;
   •   the students’ files contained job placement paperwork;
   •   there were verifications of the 90-day job monitoring requirement;
   •   there were attendance records to support the students attended training;
   •   copies of the applicable certification supported program completion; and
   •   the students obtained their own jobs.

The tests for promotions and wage increases were to determine if there was
documentation to support:

   •   completed training data;
   •   student attendance;
   •   job placements;
   •   employment data prior to training;
   •   any updated employment data after training; and
   •   the promotion and salary increase data for marginally employed participants.

Matching

We obtained CPDC's Detail Support Schedules to determine the actual amount of
matching funds CPDC provided to the grant. We then reconciled the amounts on the
Detail Support Schedules to the amounts reported on the FSR to ensure the Detail
Support Schedules contained the universe of matching fund costs.

We judgmentally selected large dollar items from the Detail Support Schedules first
selecting the line item and then the individual cost items. We did not include salary and
indirect costs line items because we covered these costs in other work. The following
table shows the matching funds we audited:

                  Consultant Adjustment                        $ 101,572
                  IT Matching                                  $ 231,643
                  Teaming for Technology                       $ 15,000
                  Xenagrade                                    $ 22,670
                  Software Depreciation                        $ 806,481
                  Cleaning and Maintenance                     $ 526,757
                  Indirect Cost Matching                       $1,110,805
                  Total Audited                                $2,814,928

We analyzed source documents that CPDC provided to support the costs. For the
Consultant Adjustment, IT Matching, Teaming for Technology, and Xenagrade charges,
we examined the documentation to determine whether it adequately supported the
costs. We identified any differences between the amount charged and supporting
documentation and discussed the differences with CPDC officials. For the Software

U.S. Department of Labor—Office of Inspector General                                        39
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

Depreciation and the Cleaning and Maintenance charges, we obtained supporting data
from CPDC and re-computed the software and the cleaning and maintenance
expenses. We compared our calculations to the amount charged and discussed
differences with CPDC officials.

Sampling

We used statistical sampling for some of the items tested during our audit.

For salary costs, we used statistical sampling of payroll entries for 14 OTD and IT
employees. The universe of payroll entries for the 14 OTD and IT employees totaled
646. We omitted the payroll entries in which we audited as part of our work on the use
of predetermined rates. We developed a sampling plan and randomly selected 155
payroll entries for audit. The 155 payroll entries totaled $79,465.33 in salary costs.

For contractor costs, we used statistical sampling for items between $100 and $4,000.
There were 1,480 items in this universe totaling $1,106,015. We developed a sampling
plan and randomly selected 120 invoices totaling $86,462.

For participants who completed training, we developed a sampling plan and randomly
selected a sample of 85 participants from a universe of 568.

Criteria

We used the following criteria to perform this audit:

     •   Workforce Investment Act of 1998

     •   OMB Circular A-122 - Cost Principles for Non-Profit Organization, Revised
         June 1, 1998

     •   Title 29 CFR part 95 – Uniform Administrative Requirements for Institutions of
         Higher Education, Hospitals, and other Non-Profit Organizations, July 27, 1994

     •   OMB Circular A-110, Amended, September 30, 1999

     •   American Competitiveness and Workforce Improve Act of 1998

     •   ETA Solicitation for Grant Applications (SGA) H-1B, Federal Register Volume
         64., Number 157, August 16, 1999

     •   ETA H-1B Technical Skills Training Grant Program; Federal Register Volume
         66., Number 72, April 13, 2001

     •   ETA (SGA No. DFA 02-102) H-1B Federal Register Volume 66, Number 241,
         December 14, 2001

40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant


                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS


       ACWIA      American Competitiveness and Workforce Improvement Act of 1998

       CFR        Code of Federal Regulations

       CMIA       Cash Management Improvement Act

       CPDC       Community Preservation and Development Corporation

       CSE        Career and Skills Enhancement

       DOL        U.S. Department of Labor

       ETA        Employment and Training Administration

       FSR        Financial Status Report

       IRS        Internal Revenue Service

       IT         Information Technology

       OIG        Office of Inspector General

       OMB        Office of Management and Budget

       OTD        Office of the Director

       OTP        Office of the President

       SGA        Solicitation for Grant Application

       WIA        Workforce Investment Act of 1998



U.S. Department of Labor—Office of Inspector General                                        41
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant

                                                                               APPENDIX D
CPDC RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                        43
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




44                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




U.S. Department of Labor—Office of Inspector General                                        45
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




46                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
                       Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




U.S. Department of Labor—Office of Inspector General                                        47
Report Number: 03-07-001-03-321
Audit of Complaint Involving CPDC’s H-1B Technical Skills Training Grant




48                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-001-03-321
